 Report No. D-2011-082           July 11, 2011




American Recovery and Reinvestment Act Project to
   Construct Military Family Housing at Eielson
              Air Force Base, Alaska
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFB            Air Force Base
AFCEE          Air Force Center for Engineering and the Environment
DFAS           Defense Finance and Accounting Service
FAR            Federal Acquisition Regulation
FBO            Federal Business Opportunities
FPDS           Federal Procurement Data System
IAPS           Integrated Accounts Payable System
MFH            Military Family Housing
MILCON         Military Construction
OMB            Office of Management and Budget
QMAD           Quantitative Methods and Analysis Division
USAF/          Air Force Office of the Civil Engineer, Programs Division
A7CPA
                                    INSPECTOR GENERAL 

                                   DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON, VIRGINIA 22202- 4704 



                                                                                       Julyll, 2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FfNANCE AND ACCOUNTING
                SERVICE
               COMMANDER, AIR FORCE OFFICE OF THE CIVIL
                ENGINEER
               DIRECTOR, AIR FORCE CENTER FOR ENGfNEERING
                AND THE ENVIRONMENT

SUBJECT: American Recovery and Reinvestment Act Project to Construct Military Family
         Housing at Eielson Air Force Base (Report No . D-20 11-082)

We are providing this report for review and eOlllment. The Air Force could have improved
planning, funding, and initial project execution of the Military Family Housing project, valued at
$53 .9 million, at Eielson Air Force Base. The Air Force did not respond to the draft report;
however, we considcred comments from the Director, Defense Finance and Accounting Service,
when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. We
request comments from the Commander, Air Force Office of the Civil Engineer, on
Recolllmendations A.I, A.2, and A.3; and II'om the Director, Air Force Center for Engineering
and the Environment, on Recommendations B.I and B.2 by August 10,20 II.

If possible, please send a .pdf file containing your comments to audaem@dodig.mil. Copies of
the management comments must contain the actual signature of the authorizing official. We are
unable to accept the /Signed/ symbol in place of the actual signature. If you arrange to send
classified eomlllents electronically, YOUlllust send them over the SECRET Tnternet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9071 (DSN 664-9071).


                                            1R. -0, .1fL~
                                            Ust;;:;:. Burto"n:7'
                                             Deputy Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2011-082 (Project No. D2009-D000AB-0169.008)                        July 11, 2011

               Results in Brief: American Recovery and
               Reinvestment Act Project to Construct
               Military Family Housing at Eielson
               Air Force Base, Alaska
                                                        Recovery Act work and $44,080 in interest on
What We Did                                             28 invoices for non-Recovery Act work to the
We reviewed an Eielson Air Force Base (AFB)             same contractor. Before passage of the
Military Family Housing (MFH) project, valued           Recovery Act, DFAS incorrectly paid $41,045
at $53.9 million, to determine whether the              in interest on 50 contractor invoices. This
efforts of the Air Force complied with Recovery         occurred because DFAS personnel miscoded
Act requirements, Office of Management and              contract payment terms as “net 14 days” instead
Budget (OMB) guidance, the Federal                      of “net 30 days.” As a result of these errors,
Acquisition Regulation (FAR), and DoD and               DFAS may continue to overpay contractors.
Air Force implementing guidance.
                                                        What We Recommend
What We Found                                           Air Force officials should develop a definition
Air Force personnel did not comply with                 of an urgent MFH requirement to ensure a
Recovery Act requirements; they could have              minimum number of days to prepare and submit
improved planning, funding, and initial project         DD 1391 estimates and require supporting
execution. The Air Force did not adequately             documentation; identify and manage
plan the project with respect to the number of          requirements to properly scope the number of
MFH units required or the initial programmed            units needed for each housing project; and
funding amount, because the Air Force allowed           document the need for project continuation if
only a 48-hour time frame to prepare the                total base unit requirements are significantly
DD 1391 and lacked personnel to implement               reduced during the award process. AFCEE
mandated Recovery Act contracting                       officials should strengthen procedures for
requirements. As a result, the project risk             approving contractor Buy American Act
increased due to DD 1391 data accuracy.                 exception requests. DFAS officials should
                                                        improve procedures for including payment
The Air Force Center for Engineering and the            terms in payment records for AFCEE contracts
Environment (AFCEE) allowed the contractor              and train technicians accordingly.
to use foreign construction materials without
approving an exception to the Buy American              Management Comments and
Act. This occurred because AFCEE relied on              Our Response
prior determinations from other projects without        The Air Force did not comment on the draft of this
doing a formal exception analysis for the current       report issued on May 5, 2011. We request that the
project. As a result, AFCEE technically                 Air Force provide comments by August 10, 2011.
violated the Buy American Act for 13                    Comments from the Director, Standards and
construction materials.                                 Compliance, DFAS Headquarters, were
                                                        responsive. Please see the recommendations table
In addition, the Defense Finance and                    on page ii.
Accounting Service (DFAS) incorrectly paid
$4,910 in interest on 4 contractor invoices for
                                                    i
Report No. D-2011-082 (Project No. D2009-D000AB-0169.008)             July 11, 2011

Recommendations Table

        Management                   Recommendations         No Additional Comments
                                    Requiring Comment                 Required
Director, Defense Finance and                               C.1, C.2, C.3
Accounting Service
Commander, Air Force Office of   A.1, A.2, A.3
the Civil Engineer
Director, Air Force Center for   B.1, B.2
Engineering and the
Environment

Please provide comments by August 10, 2011.




                                            ii
Table of Contents

Introduction                                                        1


      Audit Objectives                                              1

      Recovery Act Background                                       1

      Eielson Air Force Base                                        3

      Air Force Center for Engineering and the Environment          4

      Defense Finance and Accounting Service                        4

      Internal Controls at Eielson AFB, AFCEE, and DFAS             4


Finding A. Air Force Personnel Did Not Comply With Recovery Act

Requirements                                                        5


      Planning                                                      5

      Funding                                                       8

      Initial Execution                                             9

      Conclusion                                                   10 

      Recommendations                                              10 

      Management Comments Required                                 11 


Finding B. AFCEE Allowed Contractor to Use Foreign Construction

Materials Without an Exception to the Buy American Act             12 


      Buy American Act Criteria                                    12 

      Eielson AFB MFH Foreign Items                                13 

      Lack of AFCEE Contracting Officer Determination              13 

      Conclusion                                                   14 

      Recommendations                                              14 

      Management Comments Required                                 15 


Finding C. DFAS Incorrectly Paid Interest on Contractor Invoices   16 


      Guidance on Improper Payments                                16 

      DFAS Prompt Payment Act Process                              17 

      DFAS Prompt Payment Act Interest                             17 

      DFAS Actions to Collect Incorrectly Paid Interest            19 

      Conclusion                                                   19 

      Recommendations, Management Comments, and Our Response       19 

Table of Contents (cont’d)
Appendices

      A. 	Scope and Methodology                 21 

             Scope                              21 

             Methodology                        21 

             Use of Computer-Processed Data     22 

             Use of Technical Assistance        22 

             Prior Audit Coverage               22 

      B. Recovery Act Criteria and Guidance	    23 


Management Comments

      Defense Finance and Accounting Service	   25 

Introduction
Audit Objectives
The primary objective of the audit was to determine whether DoD and its Components
were planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act, Office of Management
and Budget (OMB) Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009, and subsequent
related guidance. For this audit, we reviewed the planning, funding, and initial project
execution (contracting) of a Military Family Housing (MFH) project at Eielson Air Force
Base (AFB), Alaska, to determine whether the efforts of the Air Force and the Air Force
Center for Engineering and the Environment (AFCEE) complied with Recovery Act
requirements, OMB guidance, the Federal Acquisition Regulation (FAR), and DoD
implementing guidance. See Appendix A for a discussion of our scope and methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this Act include the following:
             (1) To preserve and create jobs and promote economic recovery.
             (2) To assist those most impacted by the recession.
             (3) To provide investments needed to increase economic efficiency by
                 spurring technological advances in science and health.
             (4) To invest	 in transportation, environmental protection, and other
                 infrastructure that will provide long-term economic benefits.
             (5) To stabilize State and local government budgets, in order to minimize
                 and avoid reductions in essential services and counterproductive state
                 and local tax increases.
                 .         .        .         .       .        .       .
       . . . The heads of Federal departments and agencies shall manage and expend the
       funds made available in this Act so as to achieve the purposes specified . . .
       including commencing expenditures and activities as quickly as possible
       consistent with prudent management.

Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements into the following four phases: (1) planning,
(2) funding, (3) execution, and (4) tracking and reporting. The Recovery Act requires
that projects be properly planned to ensure the appropriate use of funds. Review of the
funding phase is to ensure the funds were distributed in a prompt, fair, and reasonable
manner. Review of the project execution phase is to ensure that contracts awarded with
Recovery Act funds were transparent, competed, and contain specific FAR clauses; that
Recovery Act funds were used for authorized purposes; and that instances of fraud,
waste, error, and abuse were mitigated. Review of the execution phase also ensures that
program goals were achieved, including specific program outcomes and improved results


                                                  1

on broader economic indicators; that projects funded avoided unnecessary delays and
cost overruns; and that contractors or recipients of funds reported results. Review of the
tracking and reporting phase ensures that the recipients’ use of funds was transparent to
the public and that benefits of the funds were clearly, accurately, and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

   •	    buying American construction material,
   •	    protecting contractor whistleblowers,
   •	    publicizing contract actions,
   •	    reporting, and
   •	    giving the Government Accountability Office and agency Inspectors General
         access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,” directs
contracting officers to use the Government-wide FBO Web site (http://www.fbo.gov) to:

    •	   identify the action as funded by the Recovery Act,
    •	   post pre-award notices for orders exceeding $25,000,
    •	   describe supplies in a clear narrative to the general public, and
    •	   provide the rationale for awarding any contracting actions that were not both
         fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition, to provide transparency, FBO has a
separate section identifying Recovery Act opportunities and awards.

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables
FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.



                                             2

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance, and DoD and the Components issue their implementation
guidance. OMB has issued 11 memoranda and 1 bulletin to address the implementation
of the Recovery Act. See Appendix B for Recovery Act criteria and guidance.

DoD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DoD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization; Homeowners Assistance; Military Construction
(MILCON); Near Term Energy-Efficient Technologies; and U.S. Army Corps of
Engineers Civil Works.

    Table 1. DoD Agency-Wide and Program-Specific Recovery Act Programs
                            Program                          Amount
                                                           (in millions)
    Energy Conservation Investment                               $120
    Facilities Sustainment, Restoration, and Modernization      4,260*
    Homeowners Assistance                                         555
    Military Construction                                       2,185
    Near Term Energy-Efficient Technologies                       300
    U.S. Army Corps of Engineers Civil Works                    4,600
       Total                                                 $12,020*
    *On  August 10, 2010, Public Law 111-226, Title III, “Rescissions,” rescinded $260.5 million of
    funds from DoD Operations and Maintenance Accounts supporting the Recovery Act. This
    reduced the DoD Recovery Act Facilities Sustainment, Restoration, and Modernization amounts
    to approximately $4 billion and total DoD Agency-wide and Program-Specific Recovery Act
    program funding to approximately $11.76 billion.

The Recovery Act divides the approximately $12 billion among 33 DoD and U.S. Army
Corps of Engineers line items of appropriations.

Eielson Air Force Base
Eielson AFB, Alaska, is home to the 354th Fighter Wing of the 11th Air Force. The wing
supports operations, maintenance, mission support, and medical group functions and is
host to 10 on-base tenant organizations. The 11th Air Force, headquartered at Elmendorf
AFB, Alaska, falls under the major command of the Pacific Air Forces, Hickam AFB,
Hawaii.




                                                   3

Eielson AFB has 28 Recovery Act projects, including 1 MILCON project and
27 Facilities Sustainment, Restoration, and Modernization projects. 1 We reviewed the
MILCON project, an MFH project funded at $53.9 million, to demolish 72 inadequate
housing units and build 76 units of single-family housing at the current building standard.
This project represents the fourth phase of an ongoing MFH effort at Eielson AFB.

Air Force Center for Engineering and the Environment
The AFCEE, headquartered at Lackland AFB, Texas, is a field operating agency of the
Air Force Civil Engineer. AFCEE provides integrated engineering and environmental
management, execution, and technical services with a goal to optimize Air Force and
joint force capabilities through sustainable installations. For Eielson AFB, AFCEE
served as the construction agent and managed the contracting and surveillance of the
MFH project.

Defense Finance and Accounting Service
Defense Finance and Accounting Service (DFAS) provides accounts payable services to
DoD Components such as Eielson AFB. The DFAS Accounts Payable (formerly
Contract Pay and Vendor Pay) functional area is responsible for entitlement
determination and payment to all businesses that have provided goods or services to
the DoD.

Internal Controls at Eielson AFB, AFCEE, and DFAS
We determined that Air Force internal control weaknesses existed regarding the
Eielson AFB and AFCEE planning and initial execution of the Recovery Act MFH
project as defined by DoD Instruction 5010.40, “Managers’ Internal Control Program
(MICP) Procedures,” July 29, 2010. Inadequate internal controls included lack of
Eielson AFB supporting documentation for planning and cost estimation of MFH project
base unit requirements and neglect by AFCEE of reviewing, pricing, and determining
contractor requests for exceptions to FAR Buy American Act requirements. DFAS
lacked internal controls to identify payment term contract requirements for Eielson AFB
MFH contracts and properly code those requirements for automatic payments to the
contractor. We will provide a copy of this report to the senior officials responsible for
internal controls at Eielson AFB, AFCEE, and DFAS.




1
 See Air Force Audit Agency report F2010-0027-FBN000, “ARRA of 2009 Program Requirements 354
Fighter Wing Eielson AFB AK,” December 11, 2009, for results of the audit of the 27 Eielson Recovery
Act FSRM projects reviewed.


                                                  4

Finding A. Air Force Personnel Did Not
Comply With Recovery Act Requirements
AFCEE and Eielson AFB officials did not comply with Recovery Act requirements for
planning, funding, and initially executing the MFH construction project. The Air Force
did not adequately plan the project in regard to several aspects of the DD 1391, “Military
Construction Project Data.” Specifically, project management officials did not

   •	   have a predetermined rationale for the number of units needed,
   •	   include supporting documentation for cost estimate calculations,
   •	   adequately develop the initial programmed amount for the form, and
   •	   reconsider or rejustify the need for 76 housing units after the total base MFH
        requirement was reduced by 10 percent (108 units) 1 month before contract
        award.

In addition, the Air Force inadvertently left out required Recovery Act Treasury Account
funding codes in the FPDS. The DD 1391 project planning errors occurred because
Air Force Office of the Civil Engineer officials allowed only a 48-hour time frame for
preparation of the form. In addition, the Air Force did not reconsider the need for the
Eielson 76 MFH unit requirement because Congress already had approved the
programming for the Recovery Act project. The FPDS coding error occurred because the
Air Force did not follow procedures to implement Recovery Act contracting action
reporting requirements. As a result, the Recovery Act MFH project experienced
increased program risk related to DD 1391 data accuracy and whether Recovery Act
funds were spent on a needed requirement and included transparency on funding
classification.

Planning
Overview of Project Justification
The Air Force justified the funding authorization for this project through preparation
of the DD 1391. We reviewed the adequacy of the DD 1391 and supporting
documentation, including the economic analysis and analysis of alternatives. DoD
Regulation 7000.14-R, “DoD Financial Management Regulation,” volume 2B, chapter 6,
requires DoD Components to prepare a DD 1391 when requesting authorization of both
new construction and urgent unforeseen projects using an emergency or contingency
authorization. Two sections of the DD 1391 detail the requirements for proposed projects
and how the proposed projects would benefit the mission. Specifically, the “Description
of Proposed Construction” section, according to the Financial Management Regulation,
requires the DD 1391 to have a clear and concise description of the proposed
construction, including a complete outline of all principal features of the project. The
Financial Management Regulation also requires the “Requirement” section of the
DD 1391 to provide a detailed, informative statement concerning why the project was
needed, how and under what conditions the requirements are presently being met, and the
manner and extent to which mission accomplishment would be affected if the project
were not approved.


                                             5

The “Description of Proposed Construction” and “Requirement” sections provided an
adequate description of the proposed Recovery Act MFH construction and an adequate
outline of all principal features of the project, including the rationale for the project. The
DD 1391 stated that “this project replaces housing that was constructed in 1962. They
require major renovation and repair to correct deterioration resulting from age and heavy
use.”

The “Housing Community Profile Report, Eielson AFB, Alaska,” October 10, 2008,
documented the final condition assessment matrix scores for demolished MFH units to be
replaced by the Recovery Act MFH construction project. 2 According to the report,
“adequate units have a matrix score of 3.75 or greater.” The report defined color coding
of “RED” as “deteriorated,” for matrix scores in the range from zero to 2.24, the lowest
rating. The report showed that 72 units built in 1962 scored a rating of 1.40 to 1.45 with
a color code of RED and should be demolished. The Air Force subsequently contracted
to demolish all 72 units. Figure 1 depicts the housing units that were demolished.

                  Figure 1. Eielson AFB Housing Units Before Demolition




MFH Requirement Determination
The Air Force Office of the Civil Engineer, Programs Division (USAF/A7CPA) oversees
Air Force MILCON. On February 24, 2009, the USAF/A7CPA directed that the Eielson
AFB 354th Civil Engineering Squadron prepare and submit within 48 hours a new
Recovery Act MFH DD 1391, which included a programmed amount of $53.9 million.
The USAF/A7CPA also directed that the scope of the project include “as many units as
possible to achieve or continue to approach the existing Family Housing Master Plan.”

The Air Force relied on the “Housing Requirements and Market Analysis for Eielson
AFB, 2005-2010,” 3 December 9, 2005, to justify the number of units needed for the


2
  The Housing Community Profiles are developed to assist in planning and programming of the MFH
construction and to ensure current Air Force standards are met and maintained. The Housing Community
Profile identifies specific deficiencies and needs of the MFH at each installation based on the requirements
identified by the current, approved Housing Requirements and Market Analysis.
3
  The Housing Requirements and Market Analysis determined the total MFH Eielson AFB requirement.
The Housing Requirements and Market Analysis is a formalized method used to estimate current and


                                                     6

Recovery Act project. The purpose of the family housing market analysis was to
evaluate the availability of housing in the Eielson AFB area that could meet Air Force
standards for affordability, location, quality, and number of bedrooms. The family
housing market analysis projected a family housing requirement of 1,082 units for active-
duty military personnel stationed at Eielson AFB.

The Air Force scoped the 76-unit Recovery Act project to build as many units needed to
satisfy the 2005-2010 Eielson AFB total projected housing requirement of 1,082 units. In
deriving the 76 units, Eielson AFB officials used MFH units originally planned but not
funded for construction in two previous MFH project phases:

    •	 16 MFH units proposed for Phase 3 (non-Recovery Act MFH construction 

       project) but unfunded due to Phase 3 contract cost limitations and 


    •	 60 MFH units proposed from Phase 2 (non-Recovery Act MFH construction
       project) but unfunded due to Phase 2 appropriation cost limitations.4

Eielson AFB officials provided detailed supporting justification for how the Air Force
derived the Phase 4 Recovery Act DD 1391 primary cost estimates, including the unit
cost. We verified that the primary cost figures traced to appropriate Air Force criteria
and other MILCON supporting documents.

DD 1391 Supporting Cost Estimates
According to the Recovery Act DD 1391, the construction project included supporting
cost estimates for site improvements, landscaping, utility maintenance, streets, recreation,
demolition, environmental concerns, and design/build-design. The Air Force calculated
each supporting cost estimate based on a unique variable percentage factor. Eielson AFB
Civil Engineering officials were unable to provide a documented rationale for each of the
above mentioned supporting cost percentages. An assessment by our Technical
Assessment Directorate of the DD 1391 cost estimates concluded that the percentages the
Air Force used to derive the supporting costs needed further supporting documentation.

Reduction in Family Housing Requirements
On July 14, 2009, after the Eielson AFB submission of the DD 1391 to Air Force
headquarters on February 26, 2009, but before the AFCEE contract award on August 28,
2009, the Air Force reduced the Eielson AFB total MFH requirement by 10-percent from
1,082 units to 974 units.




projected housing deficits or surpluses at any given installation. Professional economists trained in social
sciences and familiar with principal data sources and analysis techniques conduct these analyses working as
independent consultants. The economists justify the need for the Air Force to acquire or construct new
MFH units, replace existing MFH units, or undertake whole-house or whole-neighborhood improvement
projects.
4
  The Eielson AFB Recovery Act MFH project is also referred to as the Phase 4 project.


                                                     7
The AFCEE project management plan, for the Eielson MFH project at section 2.1.5,
stated that AFCEE, in coordination with Pacific Air Forces, is responsible for authorizing
the project scope and approving all Air Force changes in project scope. We believe that
the 10-percent reduction of the total base requirement represents a possible change in
scope.

According to section 3.4.2 of Air Force Instruction 32-6002, “Family Housing Planning,
Programming, Design, and Construction,” January 15, 2008, major Air Force commands
must review, validate, and update programming, design, and construction information.
Section 3.4.2 also requires the Air Force to identify projects under design that exceed the
programmed amount and increase or decrease the scope within the programmed amount
or revise military rank and bedroom mix to USAF/A7CPA for review of programming
options. Therefore, Pacific Air Forces, as the major command for Eielson AFB, and the
USAF/A7CPA was responsible for reviewing, validating, and updating Eielson MFH
information made available before the contract award.

                                     The Air Force did not produce an approved and
    The Air Force should have        signed justification for continuing the project after
    either delayed the award or      the 10-percent reduction in the Eielson AFB housing
    formally determined that the     requirement derived from the Housing Requirements
    76 units were still needed       and Market Analysis. 5 The lack of a justification
    before the August 28, 2009,      effectively left in place information that contradicted
    task order award.                the DD 1391 as the basis for the project. As a result,
                                     the Air Force committed to construction of the
76 replacement units, valued at $53.9 million, without a documented and approved
affirmation of the need to continue with the project after the reduction in the overall
housing requirement. The Air Force should have either delayed the award or formally
determined that the 76 units were still needed before the August 28, 2009, task order
award.

Funding
The Air Force distributed Recovery Act funds to the Phase 4 military family housing
project in a timely manner but did not adequately plan for the initial development of the
programmed funding amount (and the associated units needed) for the project. On
July 17, 2009, the Air Force issued an approved budget authorization and allocation for
$53.9 million in MILCON Recovery Act funding. The Air Force included the
appropriate Recovery Act Air Force MILCON funding designations in the approved
funding authorization in the Air Force Automated Civil Engineering System and in the
funding lines of accounting contained in the Recovery Act contracting actions. On
March 9, 2009, AFCEE prepared an independent Government cost estimate for
$49.2 million.




5
  On December 29, 2009, Pacific Air Forces formally recommended in the housing community profile that
the Air Force continue with the awarded Phase 4 replacement project.


                                                  8

According to Air Force headquarters officials, the initial Air Force plan (before actual
passage of the Recovery Act) was to obtain the $54 million for this MFH construction
project through reprogramming of existing MILCON funding from two other Air Force
MFH projects, including $10.2 million from an FY 2006 project and $43.7 million from
an FY 2007 project. However, passage of the Recovery Act authorized separate and
distinct funding for all Air Force MILCON projects covered by the Act, including
$53.9 million for the Eielson MFH project. Associated implementing OMB Recovery
Act guidance required that Recovery Act funds not be co-mingled with non-Recovery
Act funds. As a result, the Air Force could not reprogram existing MILCON funding
from the two projects. Air Force headquarters officials stated that the Air Force revised
its plan to use the Recovery Act funding.

Initial Execution
AFCEE officials generally performed initial project execution properly, except they did
not include a Treasury Account funding code in the FPDS as required for Recovery Act
transparency. We reviewed whether the contracting actions were competitively solicited,
awarded with full transparency, and whether AFCEE included the required FAR clauses
related to the Recovery Act.

The Eielson MFH Recovery Act project presolicitation was properly posted to the FBO
website on March 13, 2009. On June 9, 2009, AFCEE officials issued a competitive
request for proposals limited to four incumbent 8(a) small business contractors under the
Air Force’s Heavy Engineering Repair and Construction multi-award contract. Each of
the four 8(a) bidders acknowledged solicitation receipt; however, only one solicited
bidder submitted a proposal. The bidder, Lakeshore Engineering, was the incumbent
contractor for the previous three phases of Eielson MFH work. AFCEE personnel
determined that the Lakeshore Engineering proposal provided the best value to the
Government and determined it acceptable based on a proposal technical evaluation and a
price reasonableness review. Lakeshore Engineering is registered on the Central
Contractor Registration Web page, and the Excluded Parties List System did not include
Lakeshore as a debarred contractor.

On August 28, 2009, AFCEE awarded contract FA8903-06-8505-0019 as a firm-fixed­
price task order for $49.4 million. The contract award met the target month of award as
stated in the “American Recovery and Reinvestment Act of 2009 Department of Defense
Military Construction Program Plan,” May 15, 2009. In addition, the awarded task order
was $4.5 million less than the Recovery Act $53.9 million programmed amount and was
categorized by the Air Force as bid savings. Under provisions of the DoD Comptroller
memorandum, “Project Cost Variations During Execution of American Recovery and
Reinvestment Act Expenditure Plans for Infrastructure Investments,” May 7, 2009, the
Air Force can use the bid savings (after project completion) to offset cost growth on this
or other Recovery Act-funded projects.

The Recovery Act task order was subsequently modified on April 29 and May 11, 2010.
Modification 01 incorporated a revised statement of work and provided an additional
$505,280 for construction efforts. Modification 02 incorporated a second revised


                                            9

statement of work and provided an additional $149,264 for construction efforts. The
modifications brought the total amount of Recovery Act funds obligated to $50.0 million.
However, AFCEE contracting personnel did not include in the FPDS system a required
Treasury Account Symbol for modification 01 to identify the modification as a Recovery
Act action. This occurred because AFCEE officials did not follow the procedures in the
August 19, 2009, Director, Defense Procurement and Acquisition Policy Memorandum,
“Posting and Reporting Requirements for the American Recovery and Reinvestment Act
of 2009.” As a result, modification 01 was not transparently represented as a Recovery
Act contracting action. On June 24, 2010, in response to our inquiries, AFCEE officials
took corrective action by adding the missing Treasury Account Symbol to the FPDS
entry for modification 01.

Conclusion
The Eielson AFB Recovery Act MFH project planning lacked supporting documentation
for percentages used to derive some DD 1391 costs. Air Force officials did not
adequately plan for the initial development of the programmed funding amount (and the
associated units needed) for the project. In addition, Eielson and AFCEE officials
initially planned the Recovery Act contract without reconsidering or rejustifying the need
for the 76 MFH unit requirements in lieu of a 10-percent (108-unit) reduction in the total
Eielson MFH requirement made 1 month before the contract award.

Recommendations
A. We recommend that the Commander, Air Force Office of the Civil Engineer:

          1. Develop a definition of an urgent military family housing requirement
to include a minimum number of days needed for preparing and submitting a DD
1391, “Military Construction Project Data,” and require a review to ensure all cost
elements in the DD 1391 have a documented supporting rationale.

           2. Issue a memorandum for Air Force personnel involved with developing
military housing requirements, emphasizing the importance of having written
justification for any changes to Military Family Housing requirements that could
impact the total housing requirements.

          3. Perform an administrative review within 90 days to determine
accountability within Pacific Air Forces regarding Eielson Air Force Base Recovery
Act Military Family Housing project planning including predetermined rationale
for the number of Military Family Housing units needed. The review should
include accountability for identifying and managing requirements to properly scope
the number of units needed for each housing project; and document the need for
Eielson Military Family Housing project continuation if total base unit
requirements were significantly reduced during the award process.




                                            10 

Management Comments Required
The Air Force did not comment on a draft of this report. We request that the Air Force
provide comments on the final report.




                                           11 

Finding B. AFCEE Allowed Contractor to Use
Foreign Construction Materials Without an
Exception to the Buy American Act
AFCEE allowed the Eielson AFB MFH contractor to use foreign construction materials
without approving an exception to the Buy American Act. The lack of compliance
occurred because AFCEE relied on prior determinations from other projects without
doing a formal exception analysis for the current project. As a result, AFCEE may have
violated the Buy American Act for 13 construction items in the Eielson MFH contract.

Buy American Act Criteria
                                      The Recovery Act states that appropriated funds
    AFCEE may have violated           must comply with the Buy American Act.
    the Buy American Act for 13       Therefore, award recipients must comply with the
    construction items in the         Buy  American Act in performing their work, and
    Eielson MFH contract.             contracts must include a clause mandated by FAR
                                      Subpart 25.6, “American Recovery and
Reinvestment Act—Buy American Act—Construction Materials.” However, FAR
subpart 25.6 grants Buy American Act exception authority to the contracting officer for
use during both pre-award (contract negotiation) and post-award (contract
administration).

FAR subpart 25.6 states if a Buy American Act exception applies, then the contracting
officer may allow the contractor to incorporate foreign construction materials without
regard to the restrictions of section 1605 of the Recovery Act or the Buy American Act.
FAR subpart 25.6 allows the contracting officer, before award, to evaluate all exception
requests based on information provided and supplement this information with other
readily available information. In such cases, FAR subpart 25.6 requires the contracting
officer to perform a price comparison between foreign manufactured goods and domestic
manufactured goods using a 25-percent differential to determine if the domestic goods
are too expensive.

FAR 25.604, “Preaward Determination Concerning the Inapplicability of Section 1605 of
the Recovery Act or the Buy American Act,” discusses pre-award determination
concerning the inapplicability of section 1605 of the Recovery Act or the Buy American
Act. Specifically, FAR 25.604(a) states the following:

               For any acquisition, an offeror may request from the contracting officer
               a determination concerning the inapplicability of section 1605 of the
               Recovery Act or the Buy American Act for specifically identified
               construction materials. The time for submitting the request is specified
               in the solicitation.

FAR subpart 25.6 also allows for a contracting officer Buy American Act exception
determination after contract award. In such cases, the contracting officer must negotiate



                                                 12

adequate consideration and modify the contract to allow use of the foreign construction
material. FAR 25.603(b) states the following:

               When a determination is made, for any of the reasons stated in this
               section, that certain foreign construction material may be used: (1) the
               contracting officer shall list the excepted material in the contact; and,
               (2) the head of the agency shall publish a notice in the Federal Register
               within two weeks after a determination is made.

The FAR requirement for listing the excepted materials in the contract is also
underscored by FAR 25.605, "Evaluating Offers of Foreign Construction Material.”

Eielson AFB MFH Foreign Items
On July 17, 2009, the eventual Eielson MFH project contractor (Lakeshore Engineering)
proposed to use 13 material items, valued at $111,014, obtained by the contractor from
nondomestic item suppliers in execution of the Recovery Act MFH project. These items
included ceiling fans, exterior wall mount lights, air scoops for heating systems, collated
screws, thread screws, hand rail brackets, door hinge pin stops, spool insulators, a clamp,
an attachment, and ground fault circuit interrupt receptacles.

The Lakeshore Engineering proposal requested that the AFCEE contracting officer make
a determination of Buy American Act inapplicability. The Lakeshore Engineering
request for determination was consistent with FAR clause 52.225-24, which states:
               An offeror requesting a determination regarding the inapplicability of
               section 1605 of the American Recovery and Reinvestment Act of 2009
               (Pub. L. 111-5) (Recovery Act) or the Buy American Act should
               submit the request to the Contracting Officer in time to allow a
               determination before submission of offers. The offeror shall include
               the information and applicable supporting data required by paragraphs
               (c) and (d) of FAR clause 52.225-23 in the request.

Lack of AFCEE Contracting Officer Determination
The purchase of construction materials for Recovery Act projects must comply with the
Buy American Act unless the head of the Federal department or agency grants a waiver.
To meet FAR requirements, AFCEE should have published a Federal Register notice
within 2 weeks of making a Buy American Act exception determination and modified the
Recovery Act contract action to note that a Buy American Act exception had been made.
We concluded, based on review of the contracting file, that the AFCEE contracting
officer did not act on Lakeshore Engineering’s request to make a Buy American Act
inapplicability determination regarding the Recovery Act MFH proposal. The AFCEE
contracting officer also inserted language within contract clause 52.225-23 in Recovery
Act task order FA8903-06-D-8505-0019 to erroneously state that there were no excepted
Buy American Act materials in the task order. The inserted contract clause required the
contracting officer to list applicable excepted materials or indicate “none.”

The AFCEE contracting officer agreed that no formal Buy American Act inapplicability
determination was made. The contracting officer stated that a Buy American Act


                                                 13

determination was not issued because the Lakeshore Engineering request showed
“continuity” of similar requests made for each of three previous Eielson MFH
construction phases performed by the offeror as incumbent contractor.

The contracting officer stated that Lakeshore Engineering had documented to the
contracting officer’s satisfaction its inability to comply with Buy American Act
requirements in the MFH phases performed before the Recovery Act project. For
example, on October 19, 2009, Lakeshore Engineering notified the AFCEE contracting
officer that it was unable to locate acceptable domestic manufacturing sources for seven
bathroom fixtures connected to work performed on Phase 1 Eielson MFH task order
FA8903-06-D-8505-0015. In an undated AFCEE Determination and Finding response to
the contractor request, the contracting officer stated the following:

              The undersigned cognizant Contracting Officer hereby determines that
              an exception to the “Buy American Act” is appropriate... The subject
              task order FA8903-06-D-8505-0015 shall be modified to identify that
              the Government has determined an exception to the Buy American Act
              applies and the Contracting Officer accepts [contractor’s] proposed
              consideration for the exception.

On January 7, 2010, AFCEE issued modification 05 for task order FA8903-06-8505­
0015. We concluded that the contracting officer response on task order FA8903-06-D­
8505-0015 was in compliance with FAR subpart 25.6. However, the contracting officer
relied on unrelated determinations and failed to issue a similar exception relating to
separate items for Recovery Act task order FA8093-06-8505-0019.

Conclusion
The Air Force did not adequately comply with the FAR requirement for granting an
exception to the Buy American Act for the Recovery Act MFH project at Eielson AFB.
AFCEE still needs to address the offeror request for a Buy American Act exception
determination as it applies to Recovery Act work on task order FA8903-06-D-8505-0019
and, if approved, properly modify the contract as required by the FAR.

Recommendations
B.1. We recommend that the Director, Air Force Center for Engineering and the
Environment, either:

          a. Modify task order FA8903-06-D-8505-0019 to replace the 13 foreign
material items with American-made equivalents and compensate the contractor
accordingly through Federal Acquisition Regulation requirements or

          b. Issue a Determination and Finding response to the contractor request
to approve an exception to the Buy American Act for 13 foreign material line items;
issue an administrative modification to task order FA8903-06-D-8505-0019 noting
Buy American Act excepted items, in accordance with Federal Acquisition
Regulation 25.605(d); and publish the excepted item list in the Federal Register, in
accordance with Federal Acquisition Regulation requirements.


                                              14

B.2. We recommend that Director, Air Force Center for Engineering and the
Environment, issue a memorandum re-emphasizing Federal Acquisition Regulation
requirements and procedures regarding consideration, and determinations and
findings regarding Buy American Act requirements.

Management Comments Required
The Air Force did not comment on a draft of this report. We request that the Air Force
provide comments on the final report.




                                           15

Finding C. DFAS Incorrectly Paid Interest
on Contractor Invoices
DFAS incorrectly paid $4,910 in interest on four contractor invoices from
November 2009 through October 2010 for Eielson AFB MFH Recovery Act work.
DFAS incorrectly paid the same contractor $44,080 in interest on 28 invoices for non-
Recovery Act work from July 2009 through November 2010. Prior to passage of the
Recovery Act, DFAS incorrectly paid $41,045 in interest on 50 invoices to eight AFCEE
contractors from February 2007 through February 2009. The incorrect payments
occurred because DFAS technicians miscoded contract payment terms as “net 14 days,”
as noted in a FAR clause in the basic contract, instead of “net 30 days,” as included in the
relevant task order. DFAS technicians did not input the correct payment terms because
they did not identify task order payment terms as being different from contract payment
terms. Because of these errors, DFAS may continue to overpay contractors.

Guidance on Improper Payments
DoD Financial Management Regulation, volume 10, chapter 7, “Prompt Payment Act,”
states that DoD Components may make progress payments under construction contracts
at intervals determined by the contract. In the case of task order FA8903-06-D-8505­
0019, payments were required 30 days after the date on which the designated activity
received an invoice. According to the Financial Management Regulation, when DoD
components fail to make payment by the payment due date, interest accrues from the day
after the payment due date through the payment date and is automatically paid.

Congress has mandated detection and prevention of improper payments in the Federal
Government. Public Law 107-300, “Improper Payments Information Act of 2002,” states
the following:

               The head of each agency shall, in accordance with guidance prescribed
               by the Director of the Office of Management and Budget, annually
               review all programs and activities that it administers and identify all
               such programs and activities that may be susceptible to significant
               improper payments.

Public Law 107-300 defines improper payment as “any payment that should not have
been made or that was made with an incorrect amount (including overpayments).” More
recently, Exec. Order No. 13520, 74 Fed. Reg. 62201 (2009) created policies to increase
transparency of significant payment errors throughout the Federal Government, identify
and eliminate the highest improper payments, and increase accountability for reducing
improper payment among Executive Branch agencies and officials.

The Prompt Payment Act, sections 3901 through 3904, title 31, United States Code
(31 U.S.C. §3903 [2007]) codifies prompt payment of obligations to the contractor. The
Prompt Payment Act requires that the Government pay invoices 30 days after it receives
them or by the payment date established in the contract.




                                                 16

DFAS Prompt Payment Act Process
DFAS uses the Integrated Accounts Payable System (IAPS) to process invoice payments.
IAPS is an interactive menu-driven system, which provides automatic processing for
accounting and payment functions related to commercial vendor disbursements. IAPS
performs automatic reconciliation of contract, invoice, and receipt data by line item or by
appropriation. IAPS schedules and processes payments in accordance with the Prompt
Payment Act and cash management requirements. For purposes of Eielson MFH project
invoice payments, both DFAS and AFCEE use the IAPS. The DFAS IAPS training
manual includes procedures to process invoice payments.

DFAS Prompt Payment Act Interest
For task order FA8903-06-D-8505-0019, payments are required 30 days after the date on
which the designated activity receives an invoice. 6 However, DFAS miscoded the
contract payment terms as net 14 days instead of net 30 days, resulting in incorrect
payment of interest of $4,910, to the contractor on the task order (see Table 3).
      Table 3. Incorrect Payments Related to Eielson MFH Recovery Act Project

                                                               Date of
                                                                DFAS
    Contractor                                              Overpayment           Contractor
     Invoice                             Interest Paid       Notification          Refunded
     Number        Payment Date         to Contractor       to Contractor        Overpayment?
      0002         Nov. 24, 2009               $2,417        July 9, 2010            Yes
      0003          Dec. 3, 2009                1,830        July 8, 2010            Yes
      0005         Feb. 16, 2010                  441       Nov. 10, 2010            Yes
      0014         Oct. 27, 2010                  222        Nov. 3, 2010            Yes
         Total                                 $4,910

DFAS officials stated that the payment errors occurred because DFAS technicians
entered “net 14 days” as the payment terms based on clause 52.232-27 information in the
basic contract. DFAS officials further stated that DFAS technicians obtained this clause
from DFAS’s Electronic Document Access system. The Web-based Electronic
Document Access system provides secure online access, storage, and retrieval of
contracts and other documents. DFAS officials noted that in some instances, the
Standard Procurement System may use “net 14 days” as a default, but they could not
confirm this because such payment details were not available beyond 12 months after




6
 The indefinite-delivery, indefinite-quantity contract FA8903-06-D-8505, awarded April 12, 2006, in
“Section I - ADDENDUM,” included FAR contract clause 52.232-27, "Prompt Payment for Construction
Contracts (Oct 2003)," which stated, "The due date for making such payments is 30 days after the
designated billing office receives a proper payment request."


                                                 17

payment. The Standard Procurement System 7 comprises procurement applications that
DoD contracting professionals use, and the system captures all the elements necessary for
the creation and administration of DoD contracts and related documents. The Standard
Procurement System enables accurate tracking and reporting of financial data through the
budgeting, requisition, contracting, contract administration, payment and, contract
closeout processes. The Standard Procurement System standardizes procurement
business processes and automates contract writing and administration of all the Military
Departments and Defense agencies.

We found that the DFAS miscoding also affected a number of other AFCEE Heavy
Engineering and Construction task orders issued under eight indefinite-delivery,
indefinite-quantity contracts, prior to the Recovery Act, in addition to the contract
discussed in this report. From February 22, 2007, through February 6, 2009, DFAS
incorrectly paid $41,045 in interest on 50 invoices from eight contractors. DFAS
requested and received refunds from the contractors for the $41,045.

DFAS provided us additional data showing that they had incorrectly paid interest to
Lakeshore Engineering Services for six additional task orders on 28 invoices from
July 2009 through November 2010 not funded by the Recovery Act, totaling $44,080.
DFAS requested and received refunds from Lakeshore Engineering Services for the
$44,080.

         Table 4. Other Incorrect Payments to the Recovery Act Contractor
      Contractor                                                  Contractor
      Task Order     Number of       Total Interest Payments       Refunded
              1
      Number           Invoices           to Contractor            Payments?
          0015                   2                        $10,803                           Yes
          0016                  21                         29,630                           Yes
          0020                   1                          1,202                           Yes
          0022                   1                          1,632                           Yes
          0024                   1                            561                           Yes
          0025                   2                            253                           Yes
            Total               28                       $44,0802
      1
        These are indefinite-delivery, indefinite-quantity contract FA8903-06-D-8505 task orders not
      funded by Recovery Act.
      2
        Because of rounding, column does not sum.




7
 Technically, the Standard Procurement System is the name of the joint DoD program, and Procurement
Desktop Squared is the name of the currently deployed procurement software system.


                                                   18
DFAS Actions to Collect Incorrectly Paid Interest
DFAS provided collection evidence showing that all of the contract overpayments we
identified have been paid back. In July and November 2010, DFAS Limestone issued
demand letters to the Recovery Act contractor to recover interest payments. In August
and December 2010, DFAS Limestone collected the four interest payments totaling
$4,910 from the Recovery Act contractor. DFAS also collected the 28 interest payments
totaling $44,080 from the Recovery Act contractor for non-Recovery Act work. DFAS
also collected the 50 interest payments totaling $41,045 from eight indefinite-quantity,
indefinite-delivery contractors for non-Recovery Act work.

Conclusion
DFAS did not identify that the Government was making improper overpayments of
interest to the contractors. Therefore, Eielson MFH project payments are subject to
increased risk of improper payments on the Recovery Act and non-Recovery Act work.

Recommendations, Management Comments, and Our
Response
C. We recommend that the Director, Defense Finance and Accounting Service,
establish the following internal control procedures to identify and implement proper
payment terms and prevent miscoding related to the Air Force Center for
Engineering and the Environment contracts:

        1. Within 90 days, conduct a review of progress payments for task order
FA8903-06-D-8505-0019 invoices from August 28, 2009, to date to identify all
incorrect interest payments due to miscoding of contract terms and take action to
collect all incorrectly paid interest.

Management Comments
The Director, Standards and Compliance, Defense Finance and Accounting Service,
agreed and stated that DFAS is reviewing 17 payments made to the Recovery Act
contractor for task order FA8903-06-D-8505-0019. The Director stated that DFAS will
complete the review within 90 days and will take immediate corrective action on any
additional improper overpayments of interest identified during this review.

       2. Within 90 days, conduct internal control reviews of progress payments for
impacted AFCEE contracting actions from August 28, 2009, forward, and annually
thereafter, to ensure compliance with Public Law 107-300.

Management Comments
The Director, Standards and Compliance, Defense Finance and Accounting Service,
agreed and stated that DFAS will begin a comprehensive review on the accuracy of
accrued interest on payments to all AFCEE-related contractors, starting from
August 2008 on through to the latest payments. The Director indicated that DFAS will



                                           19

complete the review within 90 days and will use the results when performing statistical
sampling reviews.

       3. Within 90 days, provide training to accounting technicians on proper
coding of payment terms.

Management Comments
The Director, Standards and Compliance, Defense Finance and Accounting Service,
agreed and stated that DFAS held training in March 2011 on the proper coding of the
payment terms for technicians at DFAS Limestone and DFAS Columbus in their
respective Funds Requirement and Entitlement Branches. The Director stated that DFAS
updated each area’s standard operating procedures to ensure that the technicians properly
identify and code payment terms into the appropriate entitlement system.

Our Response
Comments from the Director, Standards and Compliance, Defense Finance and
Accounting Service, were responsive, and we require no additional comments.




                                           20

Appendix A. Scope and Methodology
We conducted this performance audit from May 2010 through March 2011 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope
We selected the only Recovery Act Military Construction project at Eielson AFB for
review. It was one of 83 DoD-wide high-risk Recovery Act projects identified through
use of the modified Delphi technique as noted below. Specifically, the construction
project is for MFH and was estimated and funded for $53.9 million. The Recovery Act
project is Phase 4 of four construction project phases and was awarded as task order 0019
of existing multi-award contract FA8903-06-D-8505.

We visited Eielson AFB, Alaska, and AFCEE at Lackland AFB, Texas, for the MFH
project. Our review at Eielson AFB included interviewing personnel of the 354th Civil
Engineering Squadron, along with AFCEE on-site personnel. Our review of AFCEE at
Lackland AFB, Texas, included interviewing contract and program personnel from
AFCEE. We used this supporting documentation to determine whether contract
solicitations and awards met OMB, FAR, and DoD Recovery Act implementation and
transparency requirements. At both locations, we reviewed requirements, contracting and
financial documentation from March 2005 through February 2011. We also contacted,
interviewed, and obtained financial documentation from DFAS Columbus and DFAS
Limestone officials regarding progress payment data on the Eielson MFH contract from
July 2010 through March 2011.

Methodology
Our overall audit objective was to evaluate DoD’s implementation of plans for the
Recovery Act of 2009. To accomplish our objective, we audited the planning, funding,
and execution of one Recovery Act project to determine whether efforts of the 354th
Fighter Wing at Eielson AFB, Alaska, and AFCEE complied with Recovery Act
requirements, OMB guidance, the FAR, and DoD implementing guidance. Specifically,
we determined whether:

   •	 the selected projects were adequately planned to ensure the appropriate use of
      Recovery Act funds (Planning);
   •	 funds were awarded and distributed in a prompt, fair, and reasonable manner
      (Funding); and
   •	 contracts contained required Recovery Act FAR clauses and codes (initial Project
      Execution).




                                           21

Before selecting DoD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division (QMAD) of the DoD Office of Inspector General analyzed all DoD
agency-funded projects, locations, and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. QMAD selected most audit projects
and locations using a modified Delphi technique, which allowed us to quantify the risk
based on expert auditor judgment, and other quantitatively developed risk indicators.
QMAD used information collected from all projects to update and improve the risk
assessment model. QMAD selected 83 projects with the highest risk rankings; auditors
chose some additional projects at the selected locations.

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended, but also of types of projects and types of locations across the Military
Departments, Defense agencies, State National Guard units, and public works projects
managed by U.S. Army Corps of Engineers.

Use of Computer-Processed Data
We used notices posted on the FBO Web site, data reported in FPDS, the Air Force
Recovery Act Financial and Activity Report, and contract documentation from the
Electronic Document Access System posted from May 2009 through July 2010. We
tested the accuracy of this data by comparing the project data reported on different
systems for consistency and by meeting with program officials responsible for reporting
on the applicable Recovery Act requirements. For Finding C, we used computer-
processed data obtained from the Electronic Document Access system. We determined
data reliability by comparing data of invalid AFCEE Heavy Engineering Repair and
Construction indefinite-delivery, indefinite-quantity contract interest payments from the
Electronic Document Access system with source documents such as Demand Letters and
collection vouchers. Our results were not affected by not performing a complete
reliability assessment of the Electronic Document Access System. Our audit was focused
on the reporting of contract actions for a specific Air Force project. From these
procedures, we concluded that the DoD data were sufficiently reliable for the purposes of
our analysis and findings.

Use of Technical Assistance
An engineer from the DoD IG Technical Assessment Directorate assisted with the audit.
The engineer supported the team in evaluating the need for the MFH project selected for
review.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.


                                           22

Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria and guidance (notes appear
at the end of the list):

   •	 U.S. House of Representatives Conference Committee Report 111-16, “Making
      Supplemental Appropriations for Job Preservation and Creation, Infrastructure
      Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
      State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
      2009, and for Other Purposes,” February 12, 2009

   •	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
      February 17, 2009

   •	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009

   •	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Investment Act of 2009 Appropriations,” February 25, 2009

   •	 White House Memorandum, “Government Contracting,” March 4, 2009

   •	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
      Funds,” March 20, 2009

   •	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009,” April 3, 20091

   •	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
      With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   •	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
      Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   •	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 20092

   •	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
      with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   •	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 2009


                                           23

    •	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
       Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
       Clause 52.204-11,” September 30, 20092

    •	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
       and Reinvestment Act – Data Quality, Non-Reporting Recipients, Reporting of
       Job Estimates,” December 18, 20092

    •	 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
       and Reinvestment Act,” March 22, 20102

    •	 White House Memorandum, “Combating Noncompliance With Recovery Act
       Reporting Requirements,” April 6, 20102

    •	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
       Compliance under the American Recovery and Reinvestment Act,” May 4, 20102

    •	 OMB Memorandum M-10-34, “Updated Guidance on the American Recovery
       and Reinvestment Act,” September 24, 20102




Notes
1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.




                                                     24

Defense Finance and Accounting Service Comments






                      DEFENSE FINANCE AND ACCOUNTING SERVICE
                                         ARL.INGTON
                                t 815 t SOUTH BELL. S TREET
                                     ARL.INGT ON , VA 22240-S2a l




                                                                         JUt! 06 2011
      DFAS -JJ


      MEMORANDUM FOR DIRECTOR, AUDIT FOLLOW-UP AND GAO AFFAIRS, OFFICE
                       OF THE INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

      SUBJECT: Management Comments to Draft Report, Project No. D2009-DOOOAB-O I69.008,
               "American Recovery and Reinvestment Act Project to Construct Military Family
               Housing at Eielson Air Force Base, Alaska" Dated May 5, 2011 ,


             Attached are the management comments to recommendations Ct-3 of the subject report.


            ~ __ ~_' m.. __ mk)~~=;~
                                  Click to add    JPEG file
                                            David E. McDennott
                                                    Director, Standards & Compliance


      Attachment:
      As stated




                                             www.dod .mil/dfas
                                        Your Financial PlIrtner @ Work




                                                                 25
Management Comments to Draft Report, Project No. D2009-DOOOAB-OI69.008, "American
 Recovery and Reinvestment Act Project to Construct Military Family Housiog at Eielson
                      Air Force Base, Alaska" Dated May S, 2011

We recommend tbe Director, Defense Finance and Accounting Service:
Recommendation C: Establish the following internal control procedures to identify and
implement proper payment terms and prevent miscoding related to the Air Force Center for
Engineering and the Environment contracts:

Recommendation Cl: Within 90 days, conduct a review of progress payments for task: order
FA8903-06-D-8505-oo19 invoices from August 28, 2009, to date to identify all incorrect interest
payments due to miscoding of contract tenns and take action to collect all incorrectly paid
interest.

Management Comment: Concur. Review of 17 payments on task ordcr FA8903-06-D-8505­
0019 is in process and will be complete prior to the 90 day mark. If additional erroneous interest
payments are identified collection action will commence on each payment immediately.

Estimated Completion Date: August 31, 2011

Recommendation C2: Within 90 days, conduct internal control reviews of progress payments
                            Click to add JPEG file
for impacted AFeEE contracting actions from August 28, 2009, fotward, and annually
thereafter. to ensure compliance with Public Law 107-300.

Management Comment: Concur. DFAS will conduct a review of all AFCEE related payments
from August 2008 and fotward within 90 days to ensure interest is being charged and paid
correctly and wiU provide the results to our established post payment commercial pay
organization for future use in perfonning statistical sampling reviews.

Estimated Completion Date: August 31 , 2011

Recommendation C3: Within 90 days, provide training to accounting technicians on proper
coding of payment tenns.

Management Comment: Concur. DFAS Limestone and Columbus technicians residing in both
Funds Requirement and Entitlement Branches received training on the proper coding of payment
terms in March 2011. Updates to each area's Standard Operating Procedure occurred to reflect
the proper identification and coding of payment tenns into the appropriate ~ntitlement system.

Estimated Completion Date: Complete




                                                           26
